              U.S. Department of Energy
              Office of Inspector General
              Office of Inspections and Special Inquiries




Inspection Report
The Department of Energy’s Review of
Chemical and Biological Export License
Applications




DOE/IG-0682                                March 2005
THE DEPARTMENT OF ENERGY’S REVIEW OF CHEMICAL
AND BIOLOGICAL EXPORT LICENSE APPLICATIONS


TABLE OF
CONTENTS
              OVERVIEW

              Introduction and Objectives ……………………………              1

              Observations and Conclusions ………………………..             2


              DETAILS OF FINDINGS

              Background ………………………………………………. 3

              Energy Export License Reviews …..…………………… 3

              Compliance …………………......……….………………. 4

              Interagency Coordination ……………………………….               4

              RECOMMENDATIONS ………………………………...                      6


              MANAGEMENT COMMENTS …………………………                       6


              INSPECTOR COMMENTS …………………………….                      6


              APPENDICES

              A. Scope and Methodology ……………………………                 7

              B. Status of Recommendations from Prior
                 National Defense Authorization Act Reports ….….   8

              C. Prior Export Control Related Reports ………..……      13

              D. Management Comments ……………………………                   14
Overview

INTRODUCTION     The National Defense Authorization Act (NDAA) for Fiscal Year
AND OBJECTIVES   (FY) 2000 provides that beginning in the year 2000 and ending in
                 the year 2007, the President shall annually submit to Congress a
                 report by the Inspectors General of, at a minimum, the
                 Departments of Energy (Energy), Commerce (Commerce),
                 Defense (Defense), and State (State) of the policies and procedures
                 of the United States Government with respect to the export of
                 technologies and technical information with potential military
                 application to countries and entities of concern. The NDAA for
                 FY 2001 also requires the Inspectors General to include in each
                 annual report the status of the implementation or disposition of
                 recommendations that were set forth in previous annual reports.

                 Exports of chemical and biological commodities from the United
                 States are receiving increased scrutiny as a result of heightened
                 national security concerns regarding the possible proliferation of
                 weapons of mass destruction using these materials. Therefore, an
                 interagency working group comprised of representatives from the
                 Offices of Inspectors General (OIGs) for Energy, Commerce,
                 Defense, State, the Department of Homeland Security, and the
                 Central Intelligence Agency (CIA) selected the process for
                 reviewing chemical and biological export license applications as
                 the topic for its 2005 review.

                 The objective of our inspection was to determine if Energy’s
                 export license review process is assisting the Government in its
                 efforts to deter the proliferation of chemical and biological
                 commodities that could be used in weapons of mass destruction.
                 To accomplish this objective, we examined:

                     •   Energy’s role in reviewing export license applications for
                         chemical and biological commodities;

                     •   Adherence by Energy officials to relevant laws and
                         regulations governing such reviews; and

                     •   Coordination by Energy officials with other Federal
                         agencies.

                 Additionally, we reviewed the status of recommendations set forth
                 in previous Energy OIG reports on annual export control reviews
                 conducted pursuant to the NDAA for FY 2000.




Page 1                               The Department of Energy’s Review of
                                     Chemical and Biological Export License
                                     Applications
OBSERVATIONS AND   We concluded that Energy’s export license review process is
CONCLUSIONS        assisting the Government in its efforts to deter the proliferation of
                   chemical and biological commodities that could be used in weapons of
                   mass destruction. Specifically, we found that:

                   •   Energy added additional licensing officers, which provided
                       Energy the capability to begin conducting reviews of chemical
                       and biological export license applications in April 2003;

                   •   Reviews of chemical and biological export license applications
                       by Energy officials complied with the 30-day review
                       requirement; and

                   •   Energy officials appropriately coordinated with other Federal
                       agencies regarding Energy’s review of chemical and biological
                       export license applications. However, some Energy licensing
                       officers were unable to access Commerce’s export license
                       application database.

                   Regarding the status of recommendations set forth in previous
                   Energy OIG reports on annual export control reviews conducted
                   pursuant to the NDAA for FY 2000, we determined that 12 of the
                   13 recommendations have been closed. Details regarding the
                   recommendations can be found in Appendix B.

                   The Energy OIG has conducted a number of reviews related to the
                   topic of export controls. A listing of these reports is contained in
                   Appendix C.




Page 2                                              Observations and Conclusions
Details of Findings

BACKGROUND                           The principal legislative authorities governing the export control of
                                     nuclear-related, dual-use1 items are the Export Administration Act
                                     (EAA) of 1979 and the Nuclear Non-Proliferation Act of 1978. The
                                     provisions of the EAA have been updated by Executive Order, most
                                     recently by Executive Order 12981, “Administration of Export
                                     Controls,” dated December 5, 1995. Executive Order 12981 grants
                                     the Secretary of Commerce the authority to refer export license
                                     applications to other agencies for review and gives agencies such as
                                     Energy the authority to look at any export license application
                                     submitted to Commerce. To implement the EAA, Commerce issues
                                     the Export Administration Regulations (EAR), which includes
                                     controls over nuclear-related items. Because Energy’s national
                                     laboratories are the primary source for expertise on nuclear-related
                                     items for the Federal Government, nuclear-related items identified for
                                     export controls by the EAR have traditionally been referred to Energy
                                     for review. Within Energy, these reviews are coordinated by
                                     licensing officers within the National Nuclear Security
                                     Administration’s (NNSA’s) Office of Export Control Policy and
                                     Cooperation.

                                     State administers export controls on all munitions pursuant to the
                                     International Traffic in Arms Regulations and reviews the pertinent
                                     export license applications, including those for chemical and
                                     biological munitions. Although State may refer export license
                                     applications for munitions commodities to Energy for review, there
                                     is no formal mechanism regarding such referrals. To date, State
                                     has not requested that Energy review export license applications
                                     for chemical and biological munitions.

ENERGY EXPORT                        We found that Energy added additional licensing officers, which
LICENSE REVIEWS                      provided Energy the capability to begin conducting reviews of
                                     chemical and biological export license applications in April 2003.
                                     Energy’s national laboratories have expertise in many areas,
                                     including chemical and biological matters. Following the events of
                                     September 11, 2001, Energy concluded that its “assets should be
                                     mobilized to deal with all forms of weapons of mass
                                     destruction…[including] chemical and biological weapons.”
                                     Pursuant to this review, the NNSA budget was increased to allow
                                     for these additional reviews, and Energy officially requested that
                                     Commerce refer chemical and biological export license
                                     applications to Energy for review beginning April 15, 2003.



1
    Some controlled commodities are designated as “dual-use,” that is, goods and technologies that have both civilian
    and military uses. The U.S. Government designates some dual-use commodities as “nuclear dual-use” items,
    which are controlled for nuclear nonproliferation purposes.


Page 3                                                                                     Details of Findings
COMPLIANCE                            We found that reviews of chemical and biological export license
                                      applications by Energy officials complied with the requirement to
                                      review export license applications within 30 days.

                                      Executive Order 12981 states that Energy has 30 days to review a
                                      referred application and provide a recommendation to Commerce
                                      regarding approval or denial of the license application. Of a
                                      sample of 91 chemical and biological license applications received
                                      by Commerce in FY 2003,2 36 were referred to Energy for review.
                                      (The remaining export license applications received by Commerce
                                      were either returned to the applicant without being referred by
                                      Commerce to other agencies for review or were received by
                                      Commerce prior to April 15, 2003, when Energy established its
                                      chemical and biological export license application review process.)
                                      We determined that Energy replied to Commerce within the 30-
                                      day time frame on all 36 of the license applications referred to
                                      Energy for review.

INTERAGENCY                           We found that Energy officials appropriately coordinated with
COORDINATION                          other Federal agencies regarding Energy’s review of chemical and
                                      biological export license applications. However, some Energy
                                      officials were unable to access Commerce’s export license
                                      application database.

SHIELD Licensing                      There are two interagency groups that can resolve disputes among
Group                                 Federal agencies regarding approval of export license
                                      applications; the SHIELD licensing group and the Operating
                                      Committee. Energy became a member of the SHIELD licensing
                                      group in April 2003, joining with State, Defense, Commerce, and
                                      CIA. The SHIELD licensing group reviews export license
                                      applications involving items controlled for chemical and biological
                                      weapons reasons and recommends whether an application should
                                      be approved or disapproved. If the members of the SHIELD
                                      licensing group cannot reach agreement on disposition of an
                                      application, the application is referred to the Operating Committee
                                      for further review. We determined that for the period covered by
                                      our review, Energy participated in each of the SHIELD licensing
                                      group meetings, and coordinated with the other group members on


2
    The OIG interagency group examined a sample, developed by a Defense statistician, of 91 chemical and
    biological related export license applications from a total of 1,803 applications received by Commerce in FY
    2003. Additionally, the OIG interagency group examined all the license applications from FY 2003 that were
    escalated to the Operating Committee for resolution, meaning one or more Federal agencies recommended denial
    after their initial review of the export license application. (The function of the Operating Committee is discussed
    in the next section of this report.) The total number of escalated license applications was 18, which included one
    export license application already reported in the initial sample of 91. Therefore, a total sample of 108 license
    applications was reviewed by the OIG interagency group.


Page 4                                                                                       Details of Findings
               all the chemical and biological license applications referred to
               Energy by Commerce.

Operating      Energy has been a member of the Operating Committee since it
Committee      was established in 1975. The Operating Committee includes
               senior officials from Energy, Commerce, Defense, and State,
               which are voting members, and the CIA, which is a non-voting
               member. The Operating Committee members are higher level
               agency officials than those in the SHIELD licensing group. We
               examined a sample of 18 license applications escalated to the
               Operating Committee for review during FY 2003. The 18 license
               applications were part of the 108 license applications reviewed by
               the OIG interagency working group. We determined that Energy
               participated in each of the Operating Committee meetings
               concerning the 18 license applications in our sample; that Energy’s
               votes were recorded; and that Energy coordinated with the other
               committee members on each of the 18 license applications
               reviewed by the Operating Committee.

ECASS Access   During our review, we observed that some Energy licensing
               officers were unable to access Commerce’s export license
               application database. All chemical and biological license
               applications, in addition to nuclear-related applications, are
               referred to Energy from Commerce via Commerce’s unclassified
               electronic Export Control Automated Support System (ECASS).
               After Energy downloads the application information from ECASS,
               the information is uploaded into Energy’s classified Proliferation
               Information Network System (PINS). The case (application) is
               then assigned by an Energy licensing officer to one or more
               Energy national laboratories for review. Because of classification
               concerns, there is no direct link between ECASS and PINS.
               Accordingly, changes to a case recorded in ECASS after the initial
               download of the case by Energy would not necessarily be known
               by Energy officials.

               Updated information on export license applications can be
               obtained by Energy personnel by either directly contacting
               Commerce officials or accessing ECASS again. Although an
               ECASS terminal is located at Energy headquarters, only one
               Energy licensing officer has password access to ECASS and no
               licensing officers have been trained in the use of the system. We
               were told that Commerce officials have not responded to Energy’s
               repeated requests for training and password assistance on ECASS.




Page 5                                                       Details of Findings
RECOMMENDATIONS   We recommend that the Deputy Administrator, Defense Nuclear
                  Nonproliferation, take appropriate action to ensure that Energy
                  licensing officers:

                  1. Have access to the Department of Commerce’s Export Control
                     Automated Support System; and

                  2. Are properly trained in the use of this system.

MANAGEMENT        Management agreed with our recommendations and will
COMMENTS          implement corrective actions. Management’s comments are
                  provided in their entirety in Appendix D.

INSPECTOR         We found management’s comments to be responsive to our
COMMENTS          recommendations. We coordinated our recommendations
                  regarding Commerce’s Export Control Automated Support System
                  with the Commerce OIG.




Page 6                                                    Recommendations
                                         Management and Inspector Comments
Appendix A

SCOPE AND     We interviewed Federal and contractor Energy officials at Energy
METHODOLOGY   headquarters and the Los Alamos National Laboratory, which
              operates the database used by Energy to process and review export
              license applications. We reviewed Energy and Commerce
              documentation for a sample of 108 export license applications for
              chemical and biological commodities that were submitted to
              Commerce in FY 2003. This sample was selected by the Offices
              of Inspectors General interagency working group. We also
              reviewed relevant export control regulations.

              As part of our review, we evaluated Energy’s implementation of
              the “Government Performance and Results Act of 1993.” We did
              not identify any performance measure issues regarding the review
              of chemical and biological export license applications.

              This inspection was conducted in accordance with the “Quality
              Standards for Inspections” issued by the President’s Council on
              Integrity and Efficiency.




Page 7                                               Scope and Methodology
Appendix B

                   STATUS OF RECOMMENDATIONS FROM PRIOR
                 NATIONAL DEFENSE AUTHORIZATION ACT REPORTS

Section 1204 of the NDAA for Fiscal Year (FY) 2001 amended Section 1402(b) of the NDAA
for FY 2000 to require the specified Offices of Inspectors General (OIGs) to include in each
annual report the status of the implementation or other disposition of recommendations that have
been set forth in previous annual reports under Section 1402(b). To date, five reports have been
completed by the Energy OIG under this requirement. Two reports: “Inspection of Status of
Recommendations from the Office of Inspector General’s March 2000 and December 2001
Export Control Reviews,” INS-L-03-07, May 2003, and “Inspection of the Department of
Energy’s Role in the Commerce Control List and the U.S. Munitions List,” INS-O-01-03, March
2001, did not contain recommendations. The following is the status of the recommendations
from the other reports. Of 13 total recommendations, 12 have been closed.

“Contractor Compliance with Deemed Export Controls,” DOE/IG-0645, April 2004:

Recommendation 1. We recommended that the Director, Office of Security and Safety
Performance Assurance, expedite issuance of a draft unclassified foreign visits and assignments
Order 142.X that addresses training requirements and responsibilities for hosts of foreign
nationals.

Energy management reported that the Office of Security has incorporated all required changes
into DOE Order 142.3, “Unclassified Foreign Visits and Assignments Program,” which was
approved on June 18, 2004. This Order includes the principal roles and responsibilities for hosts
of foreign national visitors and assignees. The Energy OIG determined that DOE Order 142.3
includes training requirements and responsibilities for hosts of foreign nationals.

The Energy OIG agreed to close this recommendation.

Recommendation 2. We recommended that the Deputy Administrator, Defense Nuclear
Nonproliferation, ensure that export control guidance, including deemed export guidance, is
disseminated and is being consistently implemented throughout the Energy complex.

Energy management reported that the National Nuclear Security Administration (NNSA) expects
to issue a new edition of the Energy “Guidelines on Export Control and Nonproliferation,”
updating and expanding the version of the Guidelines last issued in 1999. Proposals from
nonproliferation and export control/technology transfer experts at Energy headquarters and
several national laboratories have been collected and are undergoing final review. The new
edition is to be formally issued under a cover letter from the Deputy Administrator for Defense
Nuclear Nonproliferation reminding all Energy and NNSA elements of their export control
responsibilities and noting export control resources available to the field. It will incorporate
changes in relevant legislation and regulations, insights gained from dealing with various issues,
and expanded and more detailed discussion of problematic issues, such as “deemed exports.” In
addition, NNSA continues to develop an Internal Self-Assessment plan, and has not to date
received a response to its survey from the Office of Science laboratories.



Page 8                                           Status of Recommendations from Prior
                                                 National Defense Authorization Act Reports
The Energy OIG determined that this recommendation should remain open until all corrective
actions are completed.

“Inspection of the Department of Energy’s Automated Export Control System,”
DOE/IG-0533, December 2001:

Recommendation 1. We recommended that the Assistant Deputy Administrator for Arms
Control and Nonproliferation coordinate with Commerce and Treasury to ensure access by
Energy to information within the Automated Export System regarding the purchase and/or
shipment of commodities under an approved export license, and develop guidelines for Energy’s
access to the information.

Energy management reported that NNSA has taken actions as far as its cognizant authority
allows. All remaining actions are contingent on other Government agencies. NNSA
recommended that the interagency OIG group involved with export controls make specific
recommendations to individual agencies in order to effect change. While actions are not
completed, NNSA can no longer report meaningful status.

The Energy OIG agreed to close this recommendation. The Energy OIG will continue to follow
up on these issues through the interagency OIG group.

Recommendation 2a. We recommended that the Assistant Deputy Administrator for Arms
Control and Nonproliferation coordinate with State to improve communications regarding review
of export license applications for munitions commodities.

Energy management reported that NNSA has taken actions as far as its cognizant authority
allows. All remaining actions are contingent on other Government agencies. NNSA
recommended that the interagency OIG group involved with export controls make specific
recommendations to individual agencies in order to effect change. While actions are not
completed, NNSA can no longer report meaningful status.

The Energy OIG agreed to close this recommendation. The Energy OIG will continue to follow
up on these issues through the interagency OIG group.

Recommendation 2b. We recommended that the Assistant Deputy Administrator for Arms
Control and Nonproliferation coordinate with State to ensure access by Energy to information
maintained by State regarding final disposition (i.e., approval/denial of license applications and
the purchase and/or shipment of commodities) of export license applications and develop
guidelines for Energy’s access to the information.

Energy management reported that NNSA has taken actions as far as its cognizant authority
allows. All remaining actions are contingent on other Government agencies. NNSA
recommended that the interagency OIG group involved with export controls make specific
recommendations to individual agencies in order to effect change. While actions are not
completed, NNSA can no longer report meaningful status.



Page 9                                            Status of Recommendations from Prior
                                                  National Defense Authorization Act Reports
The Energy OIG agreed to close this recommendation. The Energy OIG will continue to follow
up on these issues through the interagency OIG group.

“Inspection of the Department of Energy’s Export License Process for Foreign National
Visits and Assignments,” DOE/IG-0465, March 2000:

Recommendation 1. We recommended that the Acting Deputy Administrator for Defense
Nuclear Nonproliferation ensure that senior Energy officials work with senior Commerce
officials to assure clear, concise, and reliable guidance is obtained in a timely manner from
Commerce regarding the circumstances under which a foreign national’s visit or assignment to
an Energy site would require an export license.

Energy management was advised by the Commerce Assistant Secretary for Export
Administration that extensive guidance regarding compliance with the deemed export rule was
available on the Commerce website and that Commerce would continue and strengthen its
outreach training programs for Energy’s National Laboratories.

The Energy OIG agreed to close this recommendation.

Recommendation 2. We recommended that the Director, Office of Security and Emergency
Operations, ensure that a proposed revision of the Energy Notice concerning unclassified foreign
visits and assignments includes the principal roles and responsibilities for hosts of foreign
national visitors and assignees.

Energy management reported that the Office of Security has incorporated all required changes
into DOE Order 142.3, “Unclassified Foreign Visits and Assignments Program,” which was
approved on June 18, 2004. This Order includes the principal roles and responsibilities for hosts
of foreign national visitors and assignees.

The Energy OIG agreed to close this recommendation.

Recommendation 3. We recommended that the Director, Office of Security and Emergency
Operations, include a requirement for Energy and Energy contractor officials to enter required
foreign national visit and assignment information in the Foreign Access Records Management
System, or a designated central data base, in a complete and timely manner.

Energy management reported that a new Energy-wide information system, the Foreign Access
Centralized Tracking System (FACTS), was developed and implemented. Energy further
advised that Draft Order 142.X includes a requirement for Energy sites to enter required foreign
national visit and assignment information into FACTS in a complete and timely manner.

Because Energy management’s corrective action addressed usage of FACTS by all Energy
Federal and contractor employees, the Energy OIG previously agreed to close this
recommendation and track this issue under recommendation 8.




Page 10                                         Status of Recommendations from Prior
                                                National Defense Authorization Act Reports
Recommendation 4. We recommended that the Manager of Energy’s Oak Ridge Operations
Office ensure that requests for foreign national visits and assignments at the Oak Ridge site are
reviewed by the Y-12 National Security Program Office to assist in identifying those foreign
nationals who may require an export license in conjunction with the visit or assignment.

Energy management reported that to ensure requests for foreign national visits and assignments
at the Oak Ridge National Laboratory receive appropriate export license consideration, Oak
Ridge National Laboratory initiated a system of reviews. Under the system, requests are
reviewed by five separate disciplines (Cyber Security, Export Control, Classification,
Counterintelligence, and Security). In addition, requests associated with concerns are referred
for resolution to the Non-citizen Access Review Committee. Energy management further
reported that while each of the reviews can involve the National Security Program Office, the
Oak Ridge National Laboratory Export Control Officer is responsible for referring requests to
the National Security Program Office as necessary.

The Energy OIG agreed to close this recommendation.

Recommendation 5. We recommended that the Director, Office of Security and Emergency
Operations, ensure that the requirements in the revised Energy Notice for unclassified foreign
national visits and assignments are clearly identified and assigned to responsible officials or
organizations.

Energy management reported that the Office of Security has incorporated all required changes
into DOE Order 142.3, “Unclassified Foreign Visits and Assignments Program,” which was
approved on June 18, 2004. This Order includes clear identification of requirements for foreign
national visits and assignments, and identifies responsible officials and organizations.

The Energy OIG agreed to close this recommendation.

Recommendation 6. We recommended that the Acting Deputy Administrator for Defense
Nuclear Nonproliferation ensure that guidance issued by the Office of Nuclear Transfer and
Supplier Policy to advise hosts of their responsibilities regarding foreign nationals includes the
appropriate level of oversight to be provided by the host during the period of the visit or
assignment.

Energy management reported that the Office of Security has incorporated all required changes
into DOE Order 142.3, “Unclassified Foreign Visits and Assignments Program,” which was
approved on June 18, 2004. This Order includes the principal roles and responsibilities for hosts
of foreign national visitors and assignees.

The Energy OIG agreed to close this recommendation.




Page 11                                           Status of Recommendations from Prior
                                                  National Defense Authorization Act Reports
Recommendation 7. We recommended that the Director, Office of Security and Emergency
Operations, revise the Energy policy regarding foreign national visits and assignments to ensure
that Energy sites are maintaining consistent information about foreign nationals visiting or
assigned to work at the site.

Energy management reported that the Office of Security has incorporated all required changes
into DOE Order 142.3, “Unclassified Foreign Visits and Assignments Program,” which was
approved on June 18, 2004. This Order includes the requirement for documentation in FACTS
for all visit and assignment requests in a timely manner.

The Energy OIG agreed to close this recommendation.

Recommendation 8. We recommended that the Director, Office of Security and Emergency
Operations, require that all Energy sites with foreign national visitors or assignees enter
information regarding the visits or assignments into the Foreign Access Records Management
System, or a designated central Energy database.

Energy management reported that the Office of Security has incorporated all required changes
into DOE Order 142.3, “Unclassified Foreign Visits and Assignments Program,” which was
approved on June 18, 2004. This Order includes the requirement that all sites having foreign
national visitors or assignees are required to enter information regarding the visits and
assignments into FACTS.

The Energy OIG agreed to close this recommendation.




Page 12                                         Status of Recommendations from Prior
                                                National Defense Authorization Act Reports
Appendix C
                  PRIOR EXPORT CONTROL RELATED REPORTS


•    “Contractor Compliance with Deemed Export Controls,” DOE/IG-0645, April 2004;

•    “Safeguards Over Sensitive Technology,” DOE/IG-0635, January 2004;

•    “Inspection of Status of Recommendations from the Office of Inspector General’s March
     2000 and December 2001 Export Control Reviews,” INS-L-03-07, May 2003;

•    “The Department’s Unclassified Foreign Visits and Assignments Program,”
     DOE/IG-0579, December 2002;

•    “Follow-up Inspection of the Department of Energy’s Export Licensing Process for
     Foreign National Visits and Assignments,” INS-L-02-06, June 2002;

•    “Inspection of the Department of Energy’s Automated Export Control System,”
     DOE/IG-0533, December 2001;

•    “Inspection of the Department of Energy’s Role in the Commerce Control List and the
     U.S. Munitions List,” INS-O-01-03, March 2001;

•    “Inspection of the Department of Energy’s Export License Process for Foreign National
     Visits and Assignments,” DOE/IG-0465, March 2000;

•    “The Department of Energy’s Export Licensing Process for Dual-Use and Munitions
     Commodities,” DOE/IG-0445, May 1999; and

•    “Report on Inspection of the Department’s Export Licensing Process for Dual-Use and
     Munitions Commodities,” DOE/IG-0331, August 1993.




Page 13                                             Prior Export Control Related Reports
Appendix D




Page 14      Management Comments
                                                                    IG Report No. DOE/IG-0682

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
